GR-40-98-004
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of the Community Oriented Policing Services 
Grants to the Belle Glade, Florida, Police Department
Grant Numbers 95-DM-BX-0127 and 96-CM-WX-0787
GR-40-98-004
January 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Belle Glade, Florida, Police Department (BGPD). The BGPD
received a grant of $596,104 to hire or rehire six more sworn law enforcement officers
under the Phase I program and $35,101 to redeploy six officer full-time equivalents (FTEs)
under the Making Officer Redeployment Effective (MORE) program. Also, COPS had awarded,
but the BGPD had not accepted, a $450,000 grant under the Universal Hiring Program (UHP)
to hire or rehire six more officers. The purpose of the extra officers is to enhance
community policing efforts.
In brief, our audit determined that the BGPD:


- did not enhance community policing efforts as described in its applications, and
    accordingly, we question the total amount ($631,205) of the grants awarded to and accepted
    by the BGPD.
- claimed $8,452 under the MORE grant for computer equipment which the use of would not
    result in the redeployment of officers into community policing.




- supplanted Federal funds of $215,615 under the Phase I grant and $8,700 under the
    MORE grant.
- had not developed a plan to retain grant-funded officers after the grants expire.
- incorrectly reported the number of sworn officer positions as of October 1, 1994 on
    the Department Initial Report submitted to COPS.
- had not submitted two Financial Status Reports (FSR) to the Office of Justice
    Programs (OJP), and submitted five FSRs late.
- incorrectly reported the total program outlays and Federal share of outlays on the
    FSRs.
#####